No,

JntE&e

Supreme Court of tfje QSnttcb States
Stephens v. US
AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct.
On this, the 27th day of May, 2021, Pursuant to (ORDER LIST: 589 U.S.) I
filed the foregoing petition with the United States Supreme Court electronically and
deposited one (1) paper copy via UPS Ground Transportation, and served via
electronic mail of the same, to the following:
Graham T. Green
Office of The
United States Attorney
251 North Main Street
Suite 726
Winston-Salem, NC 27101
graham.green@usdoj.gov
(336) 631-5268

Noel J. Francisco, Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217

Counsel to Respondent

:

y

Karen R. Taylor
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770

For:
Seth A. Neyhart
Counsel of Record
Law Office of Seth A. Neyhart
331 West Main Street, Suite 401
Durham, NC 27701
(202) 870-0026
setusn@hotmail.com
Counsel for Petitioner
Signed and subscribed before me on this 27th day of May, 2021.

Bradford

Moore, Notg^y

Bradford E Moore
NOTARY PUBLIC
Commonwealth of Virginia
Reg. # 7241026
My Commission Expires
April 30,2025

